               The Custodial Accounting Project Team Is
               Making Progress; However, Further Actions
              Should Be Taken to Increase the Likelihood of
                      a Successful Implementation

                                    March 2004

                       Reference Number: 2004-20-061




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                            March 3, 2004


       MEMORANDUM FOR CHIEF INFORMATION OFFICER


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - The Custodial Accounting Project Team Is
                              Making Progress; However, Further Actions Should Be Taken to
                              Increase the Likelihood of a Successful Implementation
                              (Audit # 200320025)


       This report presents the results of our review of the Custodial Accounting Project (CAP)
       Release 1.0. The overall objective of this review was to assess the status of the
       Internal Revenue Service’s (IRS) and the CAP contractor’s readiness to deliver the CAP
       Release 1.0. To accomplish our objective, we reviewed test planning and execution,
       transition planning, and business continuity planning activities. In addition, we reviewed
       any deviations from cost and schedule estimates.
       In summary, financial accountability has proven to be problematic Government-wide.
       The Office of Management and Budget considers 85 percent of major Federal
       Government agencies, including the Department of the Treasury, to have serious
       problems with financial accountability. Part of the IRS’ solution for correcting its
       financial management weaknesses includes developing and implementing the CAP.
       The IRS and the CAP contractor have made progress toward implementing the CAP
       Release 1.0. The CAP team has planned a series of tests to determine if the system
       will operate within expectations, completed significant parts of the planned testing, and
       made some important transition decisions. While the team has made progress, it faces
       challenges in the following areas: testing, transition planning, and business continuity
       planning.
       To assist the IRS in facing these challenges, we recommended that the Chief
       Information Officer (CIO) follow through on plans to increase the Business Systems
       Modernization Office’s involvement in testing, ensure the CAP contractor revises test
       scripts for future tests, and enhance transition planning by reviewing newly published
       guidelines. We also recommended that the CIO build out and test the CAP disaster
                                                      2


recovery environment as soon as possible, and reconsider the CAP disaster recovery
classification.
In addition to challenges in these three areas, the CAP contractor has experienced
significant cost increases and schedule delays. To understand the reasons for this, we
categorized the causes of each cost increase and schedule delay. Since the IRS is in
the process of implementing previous recommendations concerning cost and schedule
increases and the use of firm fixed price contracts, we made no additional
recommendations in these areas.
Because the CAP team is in the midst of critical testing and transition activities, we
communicated the results of our analyses intermittently during the audit. Therefore, this
report is historical in nature and may not reflect the most current activities or processes.
We plan to conduct a follow-up audit to provide additional analyses and
recommendations as the CAP team works toward implementation.
Management’s Response: Management fully agreed with four of our recommendations
and disagreed with one recommendation. The IRS responded that it has already
established an embedded testing team with representatives from the CAP and the
MITRE Corporation1 to further enhance the CAP testing process. In addition, IRS
management plans to ensure revised test procedures are included in an upcoming
contract, update the Transition to Support Plan2 to incorporate transition acceptance
criteria and critical success factors, share the program-level disaster recovery strategy
with the CAP contractor, and ensure the contractor develops a project-level disaster
recovery plan. Management’s complete response to the draft report is included as
Appendix V.
Office of Audit Comment: The CIO disagreed with our recommendation to reconsider
the CAP disaster recovery classification. The CIO stated that it was the Chief Financial
Officer’s (CFO) decision as owner of the system to determine the criticality of the
system, and the CFO had chosen the noncritical classification. We understand the
responsibility for determining the CAP classification for disaster recovery purposes may
rest within another part of the IRS; however, we still believe the IRS should reconsider
the noncritical disaster recovery classification.
The noncritical classification means that, if the CAP goes down after a disaster, the
system could be down until restoration of the disaster location or until a new system is
purchased. The CAP Release 1.0 will support one of the IRS’ mission critical
processes. In addition, the General Accounting Office has stated that one of the biggest
obstacles facing IRS management is the lack of financial management systems that can
produce information needed for day-to-day decisions.3 In the event of a disaster, the
CAP will not be restored timely to support a mission critical process and to provide
financial data for day-to-day decision making. While we still believe our

1
  The IRS hired the MITRE Corporation as a Federally Funded Research and Development Center to assist with the
IRS’ systems modernization effort.
2
  The CAP Transition To Support Plan documents how the system will migrate from the CAP contractor to the IRS.
3
  Financial Audit: IRS’s Fiscal Years 2003 and 2002 Financial Statements (GAO-04-126, dated November 2003).
                                           3


recommendation is worthwhile, the IRS could change the classification of the system in
the future. Therefore, we do not intend to elevate our disagreement concerning this
matter to the Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
 The Custodial Accounting Project Team Is Making Progress; However, Further Actions
      Should Be Taken to Increase the Likelihood of a Successful Implementation




                                                 Table of Contents


Background ............................................................................................... Page 1
The Custodial Accounting Project Team Is Making Progress.................... Page 3
Additional Focus Is Needed to Monitor Testing Results ............................ Page 4
         Recommendation 1: ...................................................................... Page 6
         Recommendation 2: ...................................................................... Page 7

Transition Planning Can Be Improved ....................................................... Page 7
         Recommendation 3: ...................................................................... Page 7

Business Continuity Risks Need to Be Addressed .................................... Page 8
         Recommendations 4 and 5: .......................................................... Page 10

Cost Increases and Schedule Delays Persist ............................................ Page 11
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 14
Appendix II – Major Contributors to This Report........................................ Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Breakout of Cost Increases for the Custodial
Accounting Project Since the Previous Audit............................................. Page 18
Appendix V – Management’s Response to the Draft Report ..................... Page 21
  The Custodial Accounting Project Team Is Making Progress; However, Further Actions
       Should Be Taken to Increase the Likelihood of a Successful Implementation

                                 The Custodial Accounting Project (CAP) will be a single,
Background
                                 integrated data repository of taxpayer account information,
                                 integrated with the general ledger1 and accessible for
                                 management analysis and reporting. The first release of the
                                 CAP will extract taxpayer account data from the Individual
                                 Master File (IMF) for the Taxpayer Account Subledger.
                                 The second release of the CAP will extract data from the
                                 Business Master File (BMF) and other sources for the
                                 Taxpayer Account Subledger.2
                                 Financial accountability has proven to be problematic
                                 Government-wide. The Office of Management and Budget
                                 considers 85 percent of major Federal Government
                                 agencies, including the Department of the Treasury, to have
                                 serious problems with financial accountability. Weaknesses
                                 in the Internal Revenue Service’s (IRS) financial
                                 management systems include:
                                 •   Deficiencies in controls to properly manage unpaid
                                     assessments, which result in both taxpayer burden and
                                     lost revenue to the Federal Government.
                                 •   Deficiencies in controls over tax refunds, which permit
                                     the disbursement of improper refunds.
                                 •   Inadequacies in the financial reporting process, which
                                     limit the timeliness and reliability of information for
                                     decision making.
                                 These weaknesses have caused the IRS to expend
                                 tremendous resources to prepare reliable financial




                                 1
                                   A general ledger is a set of accounts that are used to summarize an
                                 organization’s financial transactions by transaction type (e.g., cash
                                 receipts, accounts receivable, or rental expenses).
                                 2
                                   The IMF is the Internal Revenue Service (IRS) database that maintains
                                 transactions or records of individual tax accounts. The BMF is the IRS
                                 database that consists of Federal tax-related transactions and business
                                 accounts. These include employment taxes, income taxes on businesses,
                                 and excise taxes. The Taxpayer Account Subledger will be an
                                 integrated data repository of taxpayer account information containing
                                 detailed taxpayer account history and unpaid assessment information.
                                                                                                Page 1
The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation

                               statements.3 Additionally, these weaknesses may adversely
                               affect any decision by IRS management and/or the Congress
                               that is based upon information obtained from IRS systems.
                               Part of the IRS’ solution for correcting these financial
                               management weaknesses includes developing and
                               implementing the CAP. During our audit, the CAP team
                               was making progress in preparing for implementation by
                               planning and executing significant testing and making
                               significant transition decisions. While the CAP team has
                               made progress, it faces challenges to improve testing,
                               transition planning, and business continuity planning. In
                               addition, progress has been more costly and slower than
                               planned.
                               The Business Systems Modernization Office (BSMO) and
                               the CAP contractor were making changes to CAP testing
                               activities during our review period. Changes that have
                               occurred since we concluded our analysis in early
                               November 2003 are not reflected in this report. As a result,
                               this report may not reflect the most current activities or
                               processes. We plan to conduct a follow-up audit to assess
                               the progress being made toward implementing the CAP
                               Release 1.0.
                               This review was performed at the BSMO facilities in IRS
                               National Headquarters and New Carrollton, Maryland, and
                               the CAP contractor offices in Merrifield, Virginia. To
                               provide timely feedback during critical testing activities, we
                               communicated the results of our analyses intermittently
                               during the audit. These communications are discussed
                               throughout the report.
                               The audit was conducted between January and
                               December 2003 in accordance with Government Auditing
                               Standards. Detailed information on our audit objective,
                               scope, and methodology is presented in Appendix I. Major
                               contributors to the report are listed in Appendix II.




                               3
                                 While expending tremendous effort, the IRS has been able to produce
                               reliable financial statements for 3 consecutive years. In fact, the IRS
                               prepared its financial statements for Fiscal Year 2002 earlier than in
                               prior years.
                                                                                               Page 2
  The Custodial Accounting Project Team Is Making Progress; However, Further Actions
       Should Be Taken to Increase the Likelihood of a Successful Implementation

                                 In August 2000, the CAP team was approved to move
The Custodial Accounting
                                 forward with the development, testing, and implementation
Project Team Is Making
                                 of the CAP. During our audit, the IRS and the CAP
Progress
                                 contractor were testing the system and preparing for
                                 implementation.
                                 The IRS and the CAP contractor have made progress testing
                                 and preparing CAP Release 1.0 for implementation. The
                                 team has planned a series of tests to determine if the system
                                 will operate within expectations, completed significant parts
                                 of the planned testing, and made some important transition
                                 decisions.
                                 Testing plans were prepared
                                 The CAP team has prepared a complementary set of test
                                 plans to help ensure that the developed system meets
                                 expectations. We reviewed plans for the following test
                                 phases and found that the plans generally followed the
                                 standards set forth in the Enterprise Life Cycle (ELC).4
                                 •   System Integration Test (SIT) – Ensures that system
                                     components are properly integrated. More specifically,
                                     this test ensures the components of the system can
                                     properly exchange information with each other and with
                                     other systems.
                                 •   System Acceptance Test (SAT) – Confirms that the
                                     overall system functions correctly from the end user’s
                                     point of view.
                                 •   Release System Integration and Test (RSIT) – Verifies
                                     that the CAP can properly integrate with other
                                     designated modernization projects.
                                 Each test plan included entrance and exit criteria,5 specific
                                 test procedures to be followed, and the expected results for
                                 each test procedure.


                                 4
                                   The ELC is a structured business systems development method that
                                 requires the preparation of specific work products during different
                                 phases of the development process.
                                 5
                                   The entrance criteria describe what conditions must be in place before
                                 starting a specific test phase, and the exit criteria describe what
                                 conditions must be in place before moving from one test phase to the
                                 next.
                                                                                                  Page 3
    The Custodial Accounting Project Team Is Making Progress; However, Further Actions
         Should Be Taken to Increase the Likelihood of a Successful Implementation

                                   Significant testing has been completed or is in progress
                                   During our audit work, the CAP team completed the SIT for
                                   the CAP Release 1.0. In addition, the CAP team started the
                                   SAT and RSIT.
                                   Important transition decisions were made
                                   A Transition To Support (T2S) Plan includes the
                                   information necessary to successfully migrate a system to
                                   the IRS environment. The CAP T2S Plan was initially due
                                   in June 2002; however, it could not be completed at that
                                   time because a decision had not been made as to who would
                                   maintain and operate the CAP once Release 1.0 was
                                   deployed.
                                   In Spring 2003, the IRS decided that the CAP contractor
                                   would maintain the system, while the IRS Enterprise
                                   Operations Office would operate the system. In addition,
                                   funds from the Information Systems appropriation would be
                                   used to pay for operations and maintenance costs. Once the
                                   IRS had communicated these decisions, the CAP contractor
                                   delivered a draft version of the CAP T2S Plan in July 2003
                                   for review.
                                   As mentioned previously, significant testing has been
Additional Focus Is Needed to
                                   completed or is underway. The most formal testing that has
Monitor Testing Results
                                   been completed is the SIT. Therefore, the majority of our
                                   efforts involved analyzing the SIT.
                                   We reviewed the test results from the 6 completed SIT
                                   scripts (consisting of 425 test procedures) to determine
                                   whether all test results were accurately reported and all test
                                   procedures were actually performed. We found the
                                   following:
                                   •   Testing officials reported inaccurate test information
                                       during critical meetings. The ELC requires that
                                       meetings be held to determine if a project team is ready
                                       to proceed from one test phase to another. The CAP
                                       team correctly held these meetings. However, testing
                                       officials reported inaccurate information during these
                                       meetings.
                                       First, testing officials reported that seven of eight test
                                       scripts had passed the SIT. In actuality, only six of the

                                                                                            Page 4
The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation

                                   eight test scripts had passed the SIT. The remaining two
                                   test scripts were deferred until the SAT.
                                   In addition, testing officials reported that only two
                                   problem reports were outstanding upon exiting the SIT.
                                   Using a file of problem reports dated September 25,
                                   2003, we identified an additional eight problem reports
                                   that were outstanding after the SIT had concluded. We
                                   reported this to the BSMO on November 9, 2003. The
                                   CAP contractor responded that these problem reports
                                   were not discussed during critical meetings because
                                   short-term solutions had been applied to fix the
                                   problems, documentation was incorrect and the
                                   problems were not outstanding, or the intention was to
                                   fix the problem as part of the SAT.
                               •   The CAP contractor did not always complete the test
                                   procedures as written. Therefore, the actual testing
                                   results did not always match the predetermined
                                   expected results. We identified 24 test procedures that
                                   could not be completed as written. The CAP contractor
                                   informed us that this occurred for several reasons: lack
                                   of sufficient data in the SIT environment, lack of
                                   systems software in the SIT environment, and lack of
                                   data to generate logs and reports.
                                   We also identified 23 planned test procedures that were
                                   either not applicable or for which alternative test
                                   procedures were conducted. Testers determined certain
                                   test procedures were not applicable, could be
                                   accomplished more efficiently, or needed additional
                                   instructions. The ELC states that testers should correct
                                   test procedures as problems are discovered. However,
                                   the test procedures were not corrected. We
                                   communicated these concerns to the BSMO on
                                   September 24, 2003.
                               •   Some test procedures were not updated with actual
                                   test results. Some test procedures failed initially. Once
                                   retested, the test procedures passed. However, the actual
                                   results were not updated in the testing documentation for
                                   seven test procedures. We communicated this concern
                                   to the BSMO on September 24, 2003.


                                                                                     Page 5
The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation

                               We determined these inaccuracies had little effect on the
                               project because the IRS and the CAP contractor can ensure
                               shortfalls from the SIT are handled as part of the SAT.
                               However, it will be important to ensure that all testing
                               results are known prior to completing the SAT. The IRS
                               CAP Project Manager informed us that she was not initially
                               aware of detailed test result inaccuracies due to staffing
                               shortages.
                               Management Actions: Once we conveyed our SIT concerns
                               to the CAP contractor, the contractor stated it would
                               1) ensure all closed SAT test records are reviewed before
                               problem reports are closed, 2) correct test procedures that
                               would be reused in a later set of tests known as the
                               Deployment Site Readiness Test (DSRT), 3) update testing
                               documentation with actual testing results, and 4) update
                               testing results to make the test results clearer. The CAP
                               contractor also prepared documentation to defer the testing
                               of 49 test procedures from the SIT phase to the SAT phase.
                               The IRS CAP Project Manager informed us that the BSMO
                               was concerned about the inaccuracies in reporting test
                               results, but she was comfortable with the corrections being
                               made by the CAP contractor. With additional staffing now
                               available, the IRS CAP Project Manager also informed us
                               that she has assigned BSMO and MITRE6 representatives to
                               enhance oversight and reduce risk in this area.

                               Recommendations

                               To improve insight into the testing process and results, the
                               Chief Information Officer (CIO) should:
                               1. Continue increased involvement by BSMO and/or
                                  MITRE officials in the CAP testing process.
                               Management’s Response: The IRS responded that it has
                               already established an embedded testing team with
                               representatives from the CAP and MITRE to further



                               6
                                The IRS hired the MITRE Corporation as a Federally Funded Research
                               and Development Center to assist with the IRS’ systems modernization
                               effort.
                                                                                           Page 6
  The Custodial Accounting Project Team Is Making Progress; However, Further Actions
       Should Be Taken to Increase the Likelihood of a Successful Implementation

                                 enhance the CAP testing process. In addition, CAP and
                                 MITRE support will continue through Milestone 5.7
                                 2. Ensure the CAP contractor follows through on plans to
                                    revise test procedures for the DSRT.
                                 Management’s Response: IRS management plans to ensure
                                 revised DSRT procedures are included in an upcoming
                                 contract.
                                 The CAP contractor recently delivered a draft version of the
Transition Planning Can Be
                                 CAP T2S Plan to document how the system will migrate
Improved
                                 from the CAP contractor to the IRS. We reviewed a draft
                                 version of the CAP T2S Plan and determined it complied
                                 with ELC requirements. However, it could be improved by
                                 applying transition best practices.
                                 Recently, the PRIME contractor8 enhanced the ELC to
                                 require a Transition Management Plan, in place of a T2S
                                 Plan. The Transition Management Plan guidance is a result
                                 of the accumulation of best practices by the PRIME
                                 contractor. Since the CAP team started development prior
                                 to creation of the new requirement, it is not required to
                                 deliver a Transition Management Plan.
                                 The CAP team could improve transition planning by
                                 reviewing the revised ELC guidance and determining if
                                 adhering to any additional requirements would improve the
                                 CAP T2S Plan. In particular, the requirements for transition
                                 acceptance criteria and critical success factors would be
                                 helpful in planning the CAP transition. Since the final CAP
                                 T2S Plan was due to the IRS for review in early
                                 December 2003, we communicated this improvement
                                 opportunity to the BSMO on October 16, 2003.

                                 Recommendation

                                 To enhance transition planning, the CIO should:
                                 3. Determine if any sections of the new ELC guidelines
                                    could be applied to the draft CAP T2S Plan to make the
                                    Plan more comprehensive. For example, the project

                                 7
                                  Milestone 5 is post-deployment evaluation.
                                 8
                                  The IRS hired the Computer Sciences Corporation as the PRIME
                                 contractor to design and develop modernization programs and projects.
                                                                                               Page 7
    The Custodial Accounting Project Team Is Making Progress; However, Further Actions
         Should Be Taken to Increase the Likelihood of a Successful Implementation

                                        team should consider incorporating transition acceptance
                                        criteria and critical success factors.
                                    Management’s Response: The IRS responded that it had
                                    met with the CAP contractor to convey the need to review
                                    the new ELC guidelines and determine whether best
                                    practice recommendations would produce a more
                                    comprehensive CAP T2S Plan. In addition, the CAP
                                    contractor will update the T2S Plan to incorporate transition
                                    acceptance criteria and critical success factors.
                                    The IRS’ business continuity program includes disaster
Business Continuity Risks Need to
                                    recovery, business resumption, and other related efforts to
Be Addressed
                                    ensure IRS operations continue in the event of an
                                    unexpected outage. For the CAP, we determined several
                                    risks need to be addressed to ensure CAP operations can
                                    continue in such an event. We communicated our concerns
                                    to the BSMO on August 1, 2003.
                                    Disaster recovery capabilities will not be built out or
                                    fully tested prior to implementation
                                    In case of a disaster after system implementation, certain
                                    components needed to fully restore CAP functionality are
                                    not currently available. For example, a mid-level computer
                                    system that will be used to log into the CAP application has
                                    not been replicated at a disaster site.
                                    According to BSMO officials, funds have been earmarked
                                    for the next 2 fiscal years to improve disaster recovery
                                    capabilities for all modernization projects. Until that time,
                                    disaster recovery capabilities will be less than optimal.
                                    Until all components needed for a full restoration of CAP
                                    capabilities are put in place, a full test of disaster recovery
                                    capabilities cannot be conducted. According to project
                                    officials, not having full disaster recovery capabilities was
                                    caused by past budget cuts.
                                    Without full disaster recovery capabilities and testing, the
                                    IRS runs the risk that the CAP will not be able to fully
                                    recover in the event of a disaster. According to IRS
                                    officials, this risk is minimized because the majority of the
                                    CAP application runs in a mainframe environment, which
                                    can be restored in the event of a disaster.


                                                                                              Page 8
The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation

                               Business contingency tests were not initially conducted
                               The SIT Plan defines two tests known as the Application
                               Recovery Test and the Technical Recovery Test that were to
                               be conducted at the Martinsburg Computing Center.9 These
                               tests would provide indicators of the CAP’s ability to
                               recover adequately from various simulated system failures.
                               We determined that these tests were not conducted because
                               the CAP contractor did not inform the Martinsburg
                               Computing Center these tests needed to be conducted.
                               Management Action: Upon being informed these tests had
                               not been conducted, the CAP contractor rescheduled the
                               tests for the SAT.
                               CAP Release 1.0 is currently classified as a noncritical
                               system
                               The draft CAP Technical Contingency Planning Document
                               describes the contingency planning framework and
                               identifies strategies for recovery in the event of a disaster.
                               Our review of the draft CAP Technical Contingency
                               Planning Document revealed that the CAP Release 1.0, a
                               system that will cost taxpayers nearly $100 million, was
                               classified as a noncritical system. This classification means
                               that if the CAP goes down after a disaster, the system could
                               be down until restoration of the disaster location or until a
                               new system is purchased.
                               We asked Chief Financial Officer (CFO) and BSMO
                               personnel why the CAP was classified as noncritical. Based
                               upon information from the personnel we interviewed, we
                               could not determine the exact reason for the classification.
                               However, a CAP team member informed us that the CAP
                               would not be relied upon to prepare financial statements
                               during Fiscal Year 2004 and that the classification could be
                               changed at any time in the future. This, along with the fact
                               that the IRS has been able to sustain a clean opinion on its
                               financial statements without the CAP, may be the reason the
                               system is currently considered noncritical.



                               9
                                 IRS computing centers support tax processing and information
                               management through a data processing and telecommunications
                               infrastructure.
                                                                                                Page 9
The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation

                               Notwithstanding these points, we determined that the CAP
                               Release 1.0 will support one of the IRS’ mission critical
                               processes – preparing audited figures for unpaid
                               assessments, tax receipts, and refunds. Therefore, we
                               believe the IRS should consider upgrading the CAP’s
                               classification as the CAP moves toward implementation.

                               Recommendations

                               To ensure IRS officials are able to restore the CAP after a
                               disaster with the least disruption to the IRS mission, the
                               CIO should:
                               4. Completely build out and test the CAP disaster recovery
                                  environment as soon as possible.
                               Management’s Response: IRS management plans to share
                               the program-level disaster recovery strategy with the CAP
                               contractor and ensure the contractor develops a project-level
                               disaster recovery plan.
                               5. Reconsider the CAP disaster recovery classification in
                                  the draft Technical Contingency Planning Document.
                               Management’s Response: The CIO disagreed with our
                               recommendation to reconsider the CAP disaster recovery
                               classification. The CIO stated it was the CFO’s decision as
                               owner of the system to determine the criticality of the
                               system, and the CFO had chosen the noncritical
                               classification.
                               Office of Audit Comment: While we understand the
                               responsibility for determining the CAP classification for
                               disaster recovery purposes may rest within another part of
                               the IRS, we still believe the IRS should reconsider the
                               noncritical disaster recovery classification. The noncritical
                               classification means that, if the CAP goes down after a
                               disaster, the system could be down until restoration of the
                               disaster location or until a new system is purchased. The
                               CAP Release 1.0 will support one of the IRS’ mission
                               critical processes. In addition, the General Accounting
                               Office has stated that one of the biggest obstacles facing
                               IRS management is the lack of financial management
                               systems that can produce information needed for day-to-day


                                                                                     Page 10
    The Custodial Accounting Project Team Is Making Progress; However, Further Actions
         Should Be Taken to Increase the Likelihood of a Successful Implementation

                                   decisions.10 In the event of a disaster, the CAP will not be
                                   restored timely to support a mission critical process and
                                   provide financial data for day-to-day decision making.
                                   While the current disaster recovery classification is
                                   noncritical, the IRS could change the classification of the
                                   system in the future.
                                   In a previous audit,11 we reported the estimated costs to
Cost Increases and Schedule
                                   complete the first release of the CAP had increased from a
Delays Persist
                                   planned $47 million to over $61 million. In addition, the
                                   schedule for implementation had slipped from May 2002
                                   until May 2003. Cost increases and schedule delays have
                                   continued since that audit.
                                   Cost increases
                                   The majority of the cost increases noted during our previous
                                   audit were due to a work stoppage beginning in late 2000.
                                   In September 2000, the Congress directed the BSMO to
                                   limit spending on the CAP until deficiencies in the CAP
                                   business case were corrected and the management of the
                                   CAP was integrated with the Business Systems
                                   Modernization (BSM) program.12
                                   During this audit, we determined that costs have continued
                                   to increase. The latest published cost to complete the CAP
                                   Release 1.0 is now nearly $98 million. The vast majority of
                                   this increase continues to be due to integrating with the
                                   BSM program. Based upon our review of documentation
                                   and discussions with project officials, we categorized the
                                   many different cost increases since our previous review into
                                   the following general categories. See Appendix IV for a
                                   delineation of all cost increases and how each cost increase
                                   was categorized.




                                   10
                                      Financial Audit: IRS’s Fiscal Years 2003 and 2002 Financial
                                   Statements (GAO-04-126, dated November 2003).
                                   11
                                      Processes to Effectively Manage the Development of the Custodial
                                   Accounting Project Are Improving (Reference Number 2002-20-121,
                                   dated June 2002).
                                   12
                                      The IRS’ initial efforts to resolve custodial accounting weaknesses
                                   included two premodernization projects, which were initiated in 1997
                                   and 1998, respectively. These projects were combined and formed the
                                   building blocks for the CAP.
                                                                                                  Page 11
The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation

                                      Breakout of Cost Increases Since Our Previous Audit




                               Source: Analysis based upon information provided by the BSMO.

                               Schedule increases
                               At the end of our previous audit, the CAP Release 1.0 was
                               due to exit Milestone 5 in May 2003. At the time we
                               completed our fieldwork, the Milestone 5 exit date had been
                               re-scheduled for February 2004. This is a 9-month slippage
                               in completing the CAP Release 1.0 since our previous
                               review. The causes of the schedule slippage are similar to
                               the causes of the cost increases detailed previously.
                               Future cost and schedule increases
                               At the end of our review, the CAP contractor was
                               replanning the amount of time that would be needed to
                               complete testing for the CAP Release 1.0. Due to the
                               contract type, any additional time needed to complete
                               Release 1.0 will require additional funds from the IRS.
                               Since this information was not available to us at the end of
                               the audit, it was not included in the previous analysis.
                               One of the reasons cost increases continue to mount for the
                               Federal Government is that the CAP contractor is not
                               operating under a firm fixed price contract. In the past, we
                               have recommended firm fixed price contracts be used


                                                                                         Page 12
The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation

                               whenever possible, especially for projects in the
                               development and deployment stages such as the CAP.13
                               Management Actions: On September 29, 2003, the CIO
                               issued a policy that states contracts for BSM projects be
                               fixed price, with certain exceptions. As part of this policy
                               statement, the CIO requested that the Associate
                               Commissioner, BSM, and the Director, Procurement,
                               provide plans for implementing the new policy.
                               Since the IRS is in the process of implementing previous
                               recommendations concerning cost and schedule increases
                               and the use of firm fixed price contracts, we are making no
                               additional recommendations in these areas. We will
                               consider following up on previous recommendations in the
                               future.




                               13
                                 Additional Improvements Are Needed in the Application of
                               Performance-Based Contracting to Business Systems Modernization
                               Projects (Reference Number 2002-20-170, dated September 2002).




                                                                                         Page 13
     The Custodial Accounting Project Team Is Making Progress; However, Further Actions
          Should Be Taken to Increase the Likelihood of a Successful Implementation

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the status of the Internal Revenue Service’s
(IRS) and the Custodial Accounting Project (CAP) contractor’s readiness to deliver the CAP
Release 1.0. To accomplish our objective, we:
I.       Determined whether project officials developed the project test plans in accordance with
         Enterprise Life Cycle (ELC)1 requirements.
II.      Determined whether the CAP contractor accurately reported test results and resolved
         documented problems.
         A. Compared the test results to the test plans to determine whether all tests were
            performed.
         B. Traced summary test results to the detailed test results to determine whether the
            summary test results were reported accurately.
         C. Determined whether components that were scheduled for testing for the CAP
            Release 1.0 were adequately addressed during the System Integration Test (SIT).2
         D. Reviewed a download of test failures for the SIT and determined whether failures
            were adequately addressed. In addition, we documented whether the IRS ensured the
            test failures were effectively addressed.
III.     Determined how the IRS plans to operate and maintain the CAP Release 1.0 after
         deployment.
         A. Documented how the project team plans to resolve issues related to supporting the
            project after deployment.
         B. Reviewed the draft Transition To Support Plan.
IV.      Determined whether project officials were adequately planning for contingencies.


1
  The ELC is a structured business systems development method that requires the preparation of specific work
products during different phases of the development process.
2
  The SIT ensures system components are properly integrated. More specifically, this test ensures the components
of the system can properly exchange information with each other and with other systems.




                                                                                                         Page 14
    The Custodial Accounting Project Team Is Making Progress; However, Further Actions
         Should Be Taken to Increase the Likelihood of a Successful Implementation

V.         Determined the extent of changes to the project’s estimated cost, schedule, and/or
           benefits and whether the changes had been adequately explained and supported.
NOTE: Additional work was scheduled concerning the CAP System Acceptance Test (SAT)3
and project dependencies. Due to delays in CAP testing, we were unable to complete sufficient
work to report on the CAP SAT. Due to delays in other modernization projects, we are also not
reporting on project dependencies due to their decreased significance for the CAP Release 1.0.




3
    The SAT confirms that the overall system functions correctly from the end user’s point of view.



                                                                                                      Page 15
 The Custodial Accounting Project Team Is Making Progress; However, Further Actions
      Should Be Taken to Increase the Likelihood of a Successful Implementation

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Scott A. Macfarlane, Director
Troy D. Paterson, Audit Manager
James A. Douglas, Senior Auditor
Wallace C. Sims, Senior Auditor
Tina Wong, Senior Auditor




                                                                                         Page 16
 The Custodial Accounting Project Team Is Making Progress; However, Further Actions
      Should Be Taken to Increase the Likelihood of a Successful Implementation

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Commissioner, Business Systems Modernization OS:CIO:B
Deputy Associate Commissioner, Program Management OS:CIO:B:PM
Acting Director, Portfolio Management OS:CIO:R:PM
Director, Internal Management Modernization OS:CIO:B:PM:IMM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Associate Commissioner, Business Systems Modernization OS:CIO:B




                                                                                 Page 17
    The Custodial Accounting Project Team Is Making Progress; However, Further Actions
         Should Be Taken to Increase the Likelihood of a Successful Implementation

                                                                                                    Appendix IV


            Breakout of Cost Increases for the Custodial Accounting Project
                               Since the Previous Audit

                                                                            Amount of the Change
                          Description
                                                                                (in millions)
Business Systems Modernization Integration
       Integration With Security and Technology
       Infrastructure Release (STIR)1 Components                                        $ 0.94
       Integrated Financial System (IFS)2 Analysis
       and Design Requirements                                                          $ 0.38
       Custodial Accounting Project (CAP) –
       Customer Account Data Engine (CADE)3
       Interface Development                                                            $ 2.80
       6-Month Schedule Extension,
       STIR/Infrastructure Shared Services Impact,                                      $ 7.47
       etc.
       IFS-CAP Interface Implementation                                                 $ 1.51
       Infrastructure Shared Services Interim
                                                                                        $ 2.11
       Solution
       PRIME4 Account Management                                                        $ 0.75
       CADE Interface                                                                   $ 1.40
       IFS Business Warehouse (CAP Work)                                                $ 0.25
       IFS Business Warehouse (IFS Work)                                                $ 0.38


1
  The STIR project will provide the secure technical infrastructure to support and enable the delivery of the Internal
Revenue Service’s (IRS) modernized business systems. The STIR is now a part of the Infrastructure Shared
Services program.
2
  The IRS intends to address administrative financial management weaknesses by implementing the IFS. The first
release of the IFS will include the Accounts Payable, Accounts Receivable, General Ledger, Budget Execution, Cost
Management, and Financial Reporting activities.
3
  CADE Release 1 will build a database to process all formats of the Income Tax Return for Single and Joint Filers
With No Dependents (Form 1040EZ).
4
  The IRS hired the Computer Sciences Corporation as the PRIME contractor to design and develop modernization
programs and projects.
                                                                                                             Page 18
    The Custodial Accounting Project Team Is Making Progress; However, Further Actions
         Should Be Taken to Increase the Likelihood of a Successful Implementation

                                                                           Amount of the Change
                         Description
                                                                               (in millions)
       Modernized Interface Changes (Fiscal                                            $ 2.00
       Year [FY] 2004)
                                                                                    Subtotal             $ 19.99
Current Processing Environment Changes
       Changes to the Individual Master File (IMF)5                                    $ 0.48
       Extract
       Mid-Year IMF Changes                                                            $ 0.12
       Calendar Year 2003 and Mid-Year 2003 IMF                                        $ 1.86
       Return Transaction File (RTF)6 Changes
       Mid-Year Changes                                                                $ 0.45
                                                                                    Subtotal               $ 2.91
Hardware/Software
       Additional Hardware and Software                                                $ 6.50
                                                                                    Subtotal               $ 6.50
Transition Activities
       Enterprise Operations Transition Support                                        $ 0.35
       Enterprise Operations Support in FY 2003                                        $ 0.87
       Operations and Maintenance through                                              $ 2.04
       Milestone 57
       Enterprise Operations FY 2004 Support                                           $ 0.20
       through Milestone 5
                                                                                    Subtotal               $ 3.46
Other
       Cyber Security                                                                  $ 0.06


5
  The IMF is the IRS database that maintains transactions or records of individual tax accounts.
6
  The RTF contains electronic records of tax return information captured on paper and electronically filed tax
returns.
7
  Milestone 5 is post-deployment evaluation.
                                                                                                            Page 19
    The Custodial Accounting Project Team Is Making Progress; However, Further Actions
         Should Be Taken to Increase the Likelihood of a Successful Implementation

                                                                           Amount of the Change
                         Description
                                                                               (in millions)
       Payments Accounting Claims Enhancements                                         $ 1.60
       Reconciliation (PACER)8 – CAP Interface
       Section 5089 Compliance                                                         $ 0.10
       Standards Changes                                                               $ 0.50
       Archive Purge                                                                   $ 0.15
       Exhibit 30010                                                                   $ 0.10
       Management Reserve                                                              $ 0.87
                                                                                    Subtotal              $ 3.38


                                                                                      TOTAL              $ 36.24
Source: Analysis based upon information provided by the Business Systems Modernization Office.




8
  The Financial Management Service (FMS) is a bureau within the Department of the Treasury that makes all
Federal Government payments, processes claims, and does all related accounting. The PACER is an FMS system
that integrates payment information, accounting, and claims on electronic payments.
9
  Section 508 refers to part of the Rehabilitation Act of 1973 that was amended to require Federal Government
agencies to make their electronic and information technology accessible to people with disabilities. Rehabilitation
Act of 1973, Pub. L. No. 93-112, 87 Stat. 355 (codified as amended in scattered sections of 15 U.S.C., 20 U.S.C.,
29 U.S.C., 36 U.S.C., 41 U.S.C., and 42 U.S.C.).
10
   The Exhibit 300 is a capital asset plan and business case document filed with the Office of Management and
Budget.
                                                                                                            Page 20
The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation

                                                                       Appendix V


                 Management’s Response to the Draft Report




                                                                            Page 21
The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation




                                                                            Page 22
The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation




                                                                            Page 23
The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation




                                                                            Page 24
